I

CERTIFICATE OF COMPLIANCE
No.
Ivon Castro,
Petitioner
v.
Dina Simon, Individually and as Deputy
Commissioner, Elizabeth Castro, Correction
Officers’ Benevolent Association, Inc., Steven
Isaacs, Mercedes Maldonado, Koehler & Isaacs
LLP, City of New York,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains
words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on1^5 . 2020

Ivon Castro
Petitioner, Pro Se
P.O. Box 1273
Bronx, New York 10471
(646) 351-9120

